           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


   SOCIAL SECURITY ADMINISTRATION
          EMPLOYEES’ USE OF
        DISCOUNTED AIRFARES

    December 2010    A-02-09-29089




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                            SOCIAL SECURITY
MEMORANDUM

Date:      December 8, 2010                                                                     Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Social Security Administration Employees’ Use of Discounted Airfares
           (A-02-09-29089)


           OBJECTIVE
           The objective of our review was to determine whether Social Security Administration
           (SSA) employees complied with Federal Travel Regulations (FTR) and SSA’s policy on
           the use of (1) discounted airfares; (2) coach-class service (or its equivalent); and (3) the
           automated reservation system to make air travel reservations.

           BACKGROUND
           The General Services Administration (GSA) contracts with commercial air carriers to
           provide discounted airfares to Federal employees traveling on official business. Under
           these contracts, commercial air carriers offer discounted airfares between specified
           destinations, which are called City Pairs.

           For many City Pairs, both a discounted fare (which we will refer to as the Government
           fare) and a highly discounted fare (which we will refer to as the discounted Government
           fare) are available. Discounted Government fares are only available for a limited
           number of seats per flight. An advance purchase is not required for either fare, and
           both are fully refundable.

           SSA’s Division of Travel Management develops and revises SSA’s official travel policies
           for Agency employees. Per SSA’s policies, all its employees are required to select the
           method of travel most advantageous to the Agency. According to SSA, transportation
           expenditures for Fiscal Year (FY) 2009 were over $14.6 million, 1 with $8.4 million spent
           on air travel.




           1
            The Agency’s transportation expenditures for FY 2009 comprised air travel--$8.4 million; use of privately
           owned vehicles--$5.8 million; car rental--$315,871; rail travel--$171,878; and bus--$0.
Page 2 - The Commissioner


According to FTR, 2 Federal employees should purchase airline tickets at the discounted
Government fare when it is available and meets mission needs. If the discounted
Government fare is not available, employees should, subject to certain exceptions,3
purchase tickets at the Government fare. 4 The exceptions must be documented in an
approved travel authorization. 5 The reasons include the following. 6

•         Space on a Government fare flight is not available in time to accomplish the purpose
          of the trip.
•         Taking the flight would require the traveler to incur unnecessary overnight lodging
          costs that would increase the total cost of the trip.
•         A non-contract carrier offers a lower fare to the general public that, if used, will result
          in a lower total trip cost to the Government.

According to SSA’s Administrative Instructions Manual System (AIMS), SSA employees
are required to use coach-class accommodations, unless a higher class of service is
approved. 7 There are a few exceptions to this rule. For example, first-class
accommodations may be authorized if they are necessary because of an employee’s
documented disability or other physical impairment, and the employee’s condition is
substantiated in writing by a competent medical authority. 8 Purchasing first-class
accommodations can only be authorized by the Chief of Staff of the Office of the
Commissioner. 9

Employees must use SSA’s contracted travel management center, Carlson Wagonlit
Travel Sato Travel (CWT Sato), to make their travel arrangements. 10 CWT Sato
provides SSA access to E2 Solutions, an electronic travel management system that


2
    FTR § 301-10.107, Note 3, 41 C.F.R. § 301-10.107, Note 3.
3
    FTR § 301-10.107, 41 C.F.R. § 301-10.107.
4
    FTR § 301-10.106, 41 C.F.R. § 301-10.106.
5
    FTR § 301-10.108, 41 C.F.R. § 301-10.108.
6
    FTR § 301-10.107, 41 C.F.R. § 301-10.107.
7
  SSA, AIMS, Financial Management Manual (FMM) 07.09.09 A. SSA, AIMS, FMM 07.09.09 B. defines
"coach-class airline accommodations" as the basic class of accommodations offered by an air carrier to
passengers that includes a level of service that is available to all passengers regardless of the fare paid.
The term "coach-class airline accommodations" applies when an airline offers only one class of
accommodations; the term also includes tourist-class accommodations and economy-class
accommodations.
8
    SSA, AIMS, FMM 07.09.09 C.1.
9
    Id.
10
     SSA, AIMS, FMM 07.08.03 A.
Page 3 - The Commissioner


allows SSA employees to request travel authorization, and submit travel vouchers once
travel is completed.

GetThere, an online reservation tool in E2 Solutions, allows SSA employees to make
travel reservations for official business.11 Per AIMS, GetThere is the preferred method
to make travel reservations. 12 CWT Sato charges SSA a lower transaction fee for
online reservations when compared to reservations made by calling a CWT Sato travel
agent. In FY 2009, SSA incurred $400,385 in transaction fees for air travel
reservations. 13

To meet our objective, we identified all 8,656 SSA employee-ticketed air reservations
made for official business from April 1 through July 31, 2009. From this population, we
reviewed multiple samples of ticketed reservations. In total, we reviewed 298 ticketed
reservations, 186 of which were ticketed reservations for flights where a City Pair rate
was available. Each ticketed reservation contained one or more flight segments. A
flight segment consists of a one-way trip from an originating city to a destination city. In
total, the 298 ticket reservations had 684 flight segments. For each ticketed reservation
in our samples, we determined whether SSA employees followed airfare-related
policies. We also surveyed the employees who made the flight reservations to gain an
understanding of their travel practices. See Appendix B for details of our scope and
methodology.

RESULTS OF REVIEW
Most SSA employees used Government discounted fares as required. Of the ticketed
reservations made when a Government fare was available, 86 percent was purchased
at or below the Government fare. While most SSA employees flew at or below the
Government fare, a smaller percentage of SSA employees in our sample purchased
airline tickets at the discounted Government fare when compared to employees at other
Federal agencies. However, because of data limitations, we were unable to determine
whether the discounted Government fare was available each time an SSA employee
purchased an airline ticket.

SSA employees purchased coach seats when flying on official business, as required.
SSA employees did not use GetThere, the online ticket reservation tool, for all
reservations. More than half the reservations that could have been made using the


11
 GetThere cannot be used to make rail or international air reservations. SSA employees must call a
CWT Sato Travel Representative to make such reservations.
12
     SSA, AIMS, FMM 07.08.04 A.1.
13
   The total transaction fee for making air travel reservations in FY 2009 was $400,385. Of this amount,
$329,805 was for reservations made by calling an agent; $70,580 was for reservations made with
GetThere. SSA incurs a cost of $7.99 for each online transaction and $29.74 for each
telephone-assisted transaction that results in a ticketed reservation. Using the online booking tool saves
the Agency $21.75 per reservation.
Page 4 - The Commissioner


online tool were made by calling an agent instead, which resulted in SSA being charged
higher transaction fees.

SSA EMPLOYEES’ USE OF GOVERNMENT FARES

Of the 186 ticketed reservations reviewed, SSA employees reserved a flight at or below
the Government airfare for 160 (86 percent) reservations made when a Government
fare was available. The remaining 26 ticketed reservations (14 percent) were
purchased above the Government fare, though 13 of the 26 ticketed reservations had
sufficient justification for purchasing a fare above the Government fare. For example,
one employee purchased a ticket above the Government fare because the contract
carrier flights were outside working hours. Please see the following chart.


                           SSA Employees' Use of
                          GSA Airline City Pair Fares
                               (in number of ticketed reservations)

                                       13 (7%)
                           13 (7%)



                          48 (26%)
                                                          112 (60%)




                          At The Government Fare
                          At The Discounted Government Fare or Lower
                          Higher Than Government Fare With Justification
                          Higher Than Government Fare Without Justification


The remaining 13 ticketed reservations did not have a justification. SSA would have
saved $5,881 if these 13 ticketed reservations had been purchased at a Government
fare. Ten of the 13 authorizations that did not have a justification used a non-contract
carrier. We could not determine whether these employees were aware the airfares
purchased from air carriers not participating in GSA’s Airline City Pair Program were
sold at a higher cost than the Government fare. The remaining three ticketed
reservations were with a contract carrier but were purchased above the Government
fare.

While most SSA employees in our sample purchased tickets for the Government fare,
they used the more discounted Government fare less frequently than Federal
Page 5 - The Commissioner


employees Government-wide. The discounted Government fare was listed for 122 of
the 186 ticketed reservations that had a Government fare available. SSA employees
used the discounted Government fare for 48 of these ticketed reservations, or about
39 percent of the time, when both Government and discounted Government fares were
listed. As reported by GSA, Federal civilian employees Government-wide used
discounted Government fares 55 percent of the time in FY 2009 when both Government
and discounted Government fares were listed.

CWT Sato did not maintain historical data on the availability of discounted Government
fares when each employee made a reservation. As a result, we could not determine
whether the discounted Government fare was still available when each SSA employee
reserved an airline ticket. While the discounted Government fare was listed for 122 of
the 186 ticketed reservations that had a Government fare available, the discounted
Government fare was only available for a limited number of seats per flight. As a result,
we were unable to calculate the actual savings the Agency could have achieved by
using discounted Government fares.

Use of Non-Contract Air Carriers

When a Government fare was available, employees reserved a ticket with a contract air
carrier for 123 (66 percent) of 186 ticketed reservations. The remaining 63 (34 percent)
ticketed reservations had 1 or more flight segments for which an SSA employee used a
non-contract air carrier. The use of non-contract air carriers, such as discount airlines,
does not always result in the lowest airfare cost. Of the 63 non-contract carrier ticketed
reservations, 21 were purchased above the Government fare. Of those that were
purchased above the Government fare, 10 were without an authorized justification for
flying with a non-contract carrier at a greater cost to the Government. These employees
cost the Agency $4,294 14 more since they purchased tickets above the Government
fare. The remaining 11 non-contract ticket reservations were authorized before their
purchase.

Of the 63 non-contract carrier ticketed reservations, 5 were the same price as the
corresponding Government fare tickets, and 37 cost less than a comparable
Government fare ticket. The SSA employees who purchased non-contract carrier
airline tickets below the Government fare saved the Agency $6,732. Less than half of
the non-contract ticketed reservations purchased at or below the Government fare had
an authorized justification for flying with a non-contract carrier. Please see the following
chart for fares charged by non-contract carriers.




14
   These 10 employees are a subset of the 13 employees who had reservations above the Government
airfare without proper justification, which were reported on page 4 in this report. Therefore, the
$4,294 reported savings is a subset of the $5,881 reported on page 4.
Page 6 - The Commissioner



                                 SSA Employees' Use of
                                Non-Contract Air Carriers
                                   (in number of ticketed reservations)
                                                                             11 (17%)
                                                                          With Authorized
                                                                           Justification

                                                                               10 (16%)
                                                                               Without
                                                                              Authorized
                     37 (59%)
                                                                             Justification
                                                              5 (8%)




                       Ticketed Reservations Purchased Above Government Fares
                       Ticketed Reservations Purchased At Comparable Government Fares
                       Ticketed Reservations Purchased Below Government Fares


USE OF COACH-CLASS SERVICE AIRFARE

In general, SSA employees purchased coach seats when flying on official business, as
required. While nine SSA employees in our sample flew premium class, the use of
premium-class tickets was properly justified. Five of these ticketed reservations had a
valid justification and approval from the travel authorizer to obtain a higher than coach
class of service. For example, premium-class service was approved for a ticketed
reservation for international travel between Baltimore, Maryland, and Tokyo, Japan.
According to SSA’s AIMS, 15 premium-class service was permissible because the
duration of the flight exceeded 14 hours, and the employee did not have a stopover for
a rest period. We found that the remaining four ticketed reservations were charged a
Government fare even though the employee sat in the plane’s first-class cabin. To
maximize the quantity of seats sold per flight, airlines sometimes offer Federal travelers
premium- or first-class seating at the Government fare.




15
   SSA, AIMS, FMM 07.09.07 E. The use of premium-class, other than first-class airline accommodations
in lieu of a rest period stopover may be authorized or approved when travel is direct between authorized
origin and destination points which are separated by several time zones, and either the origin or
destination point is outside the continental United States, and the scheduled flight time (including
stopovers) is in excess of 14 hours. When this authority is exercised, an employee shall not be eligible
for a rest stop en route or a rest period upon arrival at the duty site
Page 7 - The Commissioner


SSA EMPLOYEES’ USE OF GETTHERE

Per AIMS, 16 GetThere is the preferred method of making travel arrangements.
Similarly, the FTR 17 indicates employees should generally use online reservation tools
to make their travel arrangements when they are made available to the employee.
GetThere provides the same flight and fare information on unrestricted 18 airline tickets
as a CWT Sato agent because both use information from the same global distribution
system (GDS). 19

There are a few types of reservations that cannot be made with GetThere. Employees
have to call an agent when a reservation involves
      •   rail travel,
      •   international travel,
      •   booking dates within 24 hours of departure date,
      •   non-refundable fares,
      •   penalty fares, and
      •   premium-class travel (First & Business).

Of the 298 reservations we reviewed, 203 (68 percent) were made by calling an agent.
Please see the following chart.

                            SUMMARY OF SSA EMPLOYEES'
                              RESERVATION METHODS
                                 (in number of ticketed reservations)



                                                          94 (32%)

                                                                              GetThere
                                203 (68%)
                                                                              Agent-Assisted




                      Note: One ticketed reservation reviewed was not charged a transaction fee.

16
     SSA, AIMS, FMM 07.08.04 A.1.
17
     FTR § 301-50.7, 41 C.F.R. § 301-50.7.
18
  Unrestricted airline tickets are fully refundable, exchangeable, and penalty free in the event of a
cancellation or change in travel plans.
19
   GDS is a world-wide computerized reservation network used as a single point of access for reserving
airline seats, hotel rooms, rental cars, and other travel related items by travel agents, online reservation
sites, and large corporations.
Page 8 - The Commissioner


Of the 203 agent-assisted reservations made, 152 (75 percent) could have been
booked using GetThere because they did not meet any of the above-mentioned
exceptions. It costs the Agency an additional $21.75 in transaction fees for each
agent-assisted flight reservation made in lieu of using GetThere. SSA could have saved
$3,306 if each of the 152 agent-assisted reservations were made using GetThere.

Of the 86 employees we surveyed who made their reservations by calling an agent and
provided a reason as to why they telephoned, 20 30 percent indicated they believed
calling CWT Sato was the required method of making travel reservations. Other SSA
employees preferred to speak with a travel agent or stated they were unaware of
GetThere. Please see the following chart.

            Reasons Why Surveyed SSA Employee Did Not Use GetThere
                    Percentage of Participants and Responses

                                 For 22%, the            26% stated           5% believed
           30% believed                                 GetThere was        GetThere had
                                     travel
         calling CWT Sato                              confusing to use     limited search
                                 arrangements
         was the required                                                     capabilities
                                met one of the
         method of making
                                 exceptions for
        travel reservations
                                using GetThere
                                                            16% stated
                                                            they did not
                                             6%                               6% delegated
                                                             know SSA
                    23% preferred        experienced                           reservation
                                                           had an online
                   to speak with a        technical                          task to a travel
                                                            reservation
                     travel agent         problems                              arranger
                                                                tool
                       instead of            with
                   using GetThere         GetThere




20
  The reported responses are from Question 5 of our survey. Some individuals provided more than one
reason as to why they phoned. Therefore, the percentages above add to more than 100 percent.
Page 9 - The Commissioner


OTHER AIRFARES AVAILABLE TO THE PUBLIC

For its City Pair program, GSA contracts with commercial airlines to provide refundable
discounted airline tickets to Federal travelers on official business. While the City Pair
tickets are discounted, airlines may offer more deeply discounted tickets that are
non-refundable. SSA employees who take advantage of cheaper non-refundable
tickets without approval from their travel authorizing official, do so at their own risk. 21 If
an employee makes a non-refundable commercial airline reservation without prior
approval, CWT Sato requires that the traveler sign a waiver that states the traveler (and
traveler's approving official) understands the ticket is non-refundable and, in the event of
a cancellation, the traveler would be liable for the cost of the ticket. Some airlines allow
the traveler to use the value of an unused non-refundable ticket, less a penalty, against
the cost of a future flight arranged through CWT Sato. The specific airline determines
whether such a credit will be given, any penalty will be deducted, and the credit is
transferable.

Even though there is a risk to the employee, employees may purchase cheaper,
non-refundable tickets since they gain some advantage over the City Pair refundable
tickets. For example, the nonrefundable tickets may be for a direct flight, as opposed to
a City Pair flight with a stopover.

The FTR and SSA policy require that employees use the Agency’s contracted travel
agent, CWT Sato, to purchase airline tickets for official business. CWT Sato provides
information on all City Pair flights, but also provides information on non-refundable
flights. Employees who fail to use CWT Sato to purchase airline tickets may bear all
additional costs incurred.

CWT Sato uses the GDS for fare and flight availability when purchasing tickets for SSA
employees. While the GDS includes information on non-refundable flights, it does not
always provide the most discounted price for such flights. Airlines provide their fares
and flight availability to the GDS at their discretion. Airlines typically provide their
cheapest fares and flight options through their own websites since they are able to
avoid fees incurred for placing flight information on the GDS or by travel agencies who
facilitate the bookings. Accordingly, the same flight may cost less if purchased from the
airline’s Webpage when compared to purchasing it via CWT Sato. Since SSA
employees must use CWT Sato, they cannot always take advantage of the airlines’
most discounted fare available without facing the possibility of disciplinary action. The


21
   Employees are not always responsible for the cost of non-refundable tickets. There are times when
non-refundable fares are economical, and SSA authorizes their use (See AIMS, FMM 07.09.09.F
Promotional/Restricted “Super-Saver” Fares). If employees obtain prior approval, they may purchase
promotional or restricted fares on noncontract airlines if the following conditions are met: (1) the traveler
can meet all applicable restrictions at a lower overall cost to the Government, including both
transportation and per diem; (2) the service provided by the noncontract carrier is equal to or better than
the contract service with respect to en route travel times; and (3) agencies should consider any penalty
fees imposed by carriers when reservations for promotional/restricted fares are cancelled or changed,
which may increase the cost of transportation by as much as 100 percent.
Page 10 - The Commissioner


requirement for employees to use CWT Sato and for CWT Sato to use the GDS
prevents employees from purchasing cheaper airline tickets that may be available
outside the GDS.

As a result, even if an employee chooses to assume all responsibility for any cancelled
flight fees for non-refundable tickets, under SSA’s current rules, the employee may not
be reimbursed for the flight. We believe an employee should be allowed to purchase
airline tickets that save the Agency money if the employee is willing to assume
responsibility for any cancellation fees.

CONCLUSION AND RECOMMENDATIONS
Most SSA employees who flew for official business from April 1 through
July 31, 2009 purchased coach class, Government fare airline tickets. We found the
Agency could have saved $5,881 had 13 employees who purchased an airline ticket
above the Government rate without justification purchased them at the Government
rate. Also, SSA could have saved at least $3,306 if GetThere was used for all ticketed
reservations that could be made through the online reservation system. We also
believe that SSA could save funds if employees were allowed to book the lowest fare
available to the public without fear of disciplinary action.

Accordingly, we recommend that SSA:

1. Continue to educate and periodically remind employees of their responsibilities to
   ensure all air travel complies with pertinent polices and regulations, is properly
   authorized, and is being performed in the most economical and advantageous
   manner, including using GetThere to make airline reservations.

2. Change its policies to allow employees to purchase airline tickets that save Agency
   funds if the employee is willing to assume responsibility for any cancellation fees.

AGENCY COMMENTS
SSA agreed with Recommendation 1 and disagreed with Recommendation 2. SSA
noted that its travel policy allows for the use of nonrefundable fares without the
employee assuming any cancellation fees as long as certain conditions are met and the
airfare is properly authorized. In commenting on our draft report, SSA also stated that
during the first 9 months of FY 2010, over 50 percent of reservations were made using
GetThere. SSA’s comments are included in Appendix D.
Page 11 - The Commissioner


OIG RESPONSE
While SSA allows employees to purchase nonrefundable fares, it only allows them to do
so through the Agency’s travel management center. The travel management center
does not allow employees as many flight options as are available on airline Websites.
Our recommendation refers to situations where SSA employees on official travel can
realize greater savings by purchasing airline tickets outside the Agency’s travel
management center. For example, at the Government rate, a round trip fare on an
airline purchased through E2 Solutions from Baltimore, Maryland, to Birmingham,
Alabama, cost $451.40. However, the same round trip flights purchased directly from
the airline’s website cost $239.40. Though the airfare purchased through E2 Solutions
is at the Government rate and is refundable, the traveler could have potentially saved
$212.00 if he or she were allowed to purchase the flights on the airline’s website instead
of using the Agency’s travel management center.

The main reason for using the airfares available in the Agency’s travel management
center is that the flights are refundable. While airfares purchased outside the travel
management center may be non-refundable, we found that only 9 percent of tickets
issued for SSA staff travel in FY 2010 were refunded. 22 The potential savings from
purchasing tickets outside the Agency’s travel management center, as highlighted in our
example, may outweigh any costs associated with unused, non-refundable tickets.
Ninety-one percent of airline tickets issued to SSA staff in FY 2010 did not need to be
refunded, and therefore did not need to be purchased at the higher, refundable fare.
SSA could have saved money on these fares by allowing staff to purchase them at the
lowest fare available, which may not have been through the travel management system.
While the Agency’s contract with CWT Sato restricts SSA employees to purchasing
tickets from CWT Sato, we believe SSA should work with GSA to ensure future
contracts allow SSA employees to take advantage of the cheapest airfare available for
official travel.




                                                    Patrick P. O’Carroll, Jr.




22
 CWT Sato Program Management Center - Executive Statistical Summary report on airfare data from
October 1, 2009 to September 30, 2010.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Survey Results
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
AIMS       Administrative Instructions Manual System
CAN        Common Accounting Number
C.F.R.     Code of Federal Regulations
CWT Sato   Carlson Wagonlit Travel Sato Travel
FMM        Financial Management Manual
FTR        Federal Travel Regulation
FY         Fiscal Year
GDS        Global Distribution System
GS         General Schedule
GSA        General Services Administration
OIG        Office of the Inspector General
SSA        Social Security Administration
                                                                                     Appendix B
Scope and Methodology
To accomplish our objectives, we:

•   Reviewed the Federal Travel Regulations and the Social Security Administration’s
    (SSA) Administrative Instructions Manual System (AIMS) guides related to the policy
    and procedures that govern air travel.

•   Obtained a list of ticketed reservations and related flight segments1 for air travel with
    a departure date April 1 through July 31, 2009 from Carlson Wagonlit Travel Sato
    Travel Program Management Center database.

•   Established eight distinct samples based on specific criteria. See Sampling Methods
    for details of the samples and related criteria.

•   Determined whether the contracted air carrier was used for flight segments that had
    matching Airline City Pairs. We reviewed travel documents to determine whether
    justifications were recorded for the use of non-contracted air carriers.

•   Compared the base fare for each of our sampled flight segments to the applicable
    Airline City Pair fare to determine whether the airfares matched.

•   Calculated the potential savings from flight segments where the Government airfare
    was available but not selected.

•   Reviewed the class of service used for each flight segment to determine whether a
    coach 2 service class or higher was used. If a premium- or first-class3 service was
    used, we determined whether justifications for such use were included in approved
    travel authorizations.

1
   A flight segment consists of a one-way trip from an originating city to a destination city. A ticketed
reservation may consist of one or more flight segments. We excluded portions of a reservation that had
flights with a departure date later than July 31, 2009 in our sample.
2
 SSA, AIMS, FMM 07.09.09 B. The term "coach-class airline accommodations" means the basic class of
accommodations offered by an air carrier to passengers that includes a level of service that is available to
all passengers regardless of the fare paid. The term "coach-class airline accommodations" applies when
an airline offers only one class of accommodations; the term also includes tourist-class accommodations
and economy-class accommodations.
3
  SSA, AIMS, FMM 07.09.09 B. defines "premium-class airline accommodations" as any class of
accommodations above coach-class airline accommodations, for example, first or business class. The
term "premium-class other than first-class airline accommodations" means any class of accommodations
between coach- and first-class airline accommodations, for example, business-class. The term "first-
class airline accommodations" means the highest class of accommodations on a multiple-class
commercial air carrier.


                                                    B-1
•   Determined whether ticketed air reservations were made through GetThere or by a
    travel agent. We calculated the costs incurred when reservations that could have
    been made on GetThere were made via an agent.

•   Surveyed a sample of 169 travelers to gain an understanding of their air travel
    practices. See Appendix C for survey questions used and the related results.

We performed our review in New York between December 2009 and July 2010. We
determined that the data used in this report were sufficiently reliable given the review
objective and intended use. The entity reviewed was the Office of the Deputy
Commissioner for Budget, Finance and Management. We conducted our audit in
accordance with generally accepted Government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

SAMPLING METHODS

We obtained detailed information on 8,656 ticketed reservations for air travel with a
departure date April 1 through July 31, 2009 4 from Carlson Wagonlit Travel Sato Travel
Program Management Center database. From this population, we established eight
categories of travel reservations based on specific criteria, which are described in the
following table.




4
 We excluded portions of a reservation that had flights with a departure date later than July 31, 2009 in
our sample.


                                                    B-2
Data            Criteria               Ticketed          Description of Sampled Items and Method of
Set                                  Reservations                         Selection
                                      in Data Set
1       Ticketed reservations             65             Reservations were sorted from highest to lowest
        with base fare $1,500                            base fare, and we selected the 25 reservations with
        or higher                                        the highest base fares.
2       Passengers who had                338            We reviewed 70 ticketed reservations. We sorted
        eight or more ticketed                           the reservations according to passengers who had
        reservations during                              the most air reservations. We selected the five
        review period                                    passengers who had the most reservations.
3       Ticketed reservations              25            We reviewed all 25 foreign 5 flights.
        for foreign travel
4       Multiple ticketed                1,311           We reviewed 27 ticketed reservations. We sorted
        reservations made with                           the reservations according to the travel
        identical travel                                 authorization number associated with the most
        authorization numbers                            ticketed reservations. We selected the five sets of
                                                         travel authorization numbers with the highest
                                                         number of ticketed reservations.
5       Ticketed reservations            1,583           Reservations were sorted from highest to lowest
        without a Common                                 base fare amount, and we selected the
        Accounting Number                                25 reservations with the highest base fares.
        (CAN), Sub-Object
        Classification,6 or travel
        authorization numbers
6       Ticketed reservations             402            Reservations were sorted from highest to lowest
        without both CAN Sub-                            base fare amount, and we selected the
        Object Classification, or                        25 reservations with the highest base fares.
        travel authorization
        numbers
7       Passengers who made               582            We reviewed 67 ticketed reservations. We sorted
        multiple ticketed                                reservations by passenger name according to the
        reservations for the                             number of reservations made for the same
        same departure date                              departure date. We selected the first 25 passenger
                                                         names, which consisted of 67 reservations.
8       Random sample                    8,404           We reviewed 50 ticketed reservations randomly
                                                         selected from the remaining population. We
                                                         excluded reservations selected for review in Data
                                                         Sets 1-7.
Total Reservations Reviewed - 314 7




5
 Domestic travel is defined as Continental United States, Alaska, Hawaii, Puerto Rico, Virgin Islands,
Guam, Canal Zone, American Samoa, Wake Island, Trust Territory of Pacific, and U.S. territories and
possessions. Foreign travel is defined as all travel other than domestic travel.
6
 The CAN and Sub-Object Classification Codes are required on all documents that commit or obligate
SSA to expend appropriated funds. The accounting office uses these codes to properly charge the
correct appropriation and SSA component for all commitments, obligations, and costs.
7
 There were 16 ticketed reservations selected more than once for Data Sets 1-7. There were a total of
298 non-duplicated ticketed reservations in our review.


                                                   B-3
                                                                       Appendix C

Survey Results
We selected 169 individuals who traveled using our sampled airfares and electronically
disseminated a survey to gain an understanding of their air travel practices. We
received 150 responses, a response rate of 89 percent.

Question 1
Generally, in Fiscal Year (FY) 2009, did you make your own flight reservations or did
administrative/support staff make reservations for you? Check one:

A) Made own flight reservation
B) Administrative/support staff made flight reservation. (Even if you did not make your
   own reservation, continue with the next question.)
C) I did not use air transportation in FY 2009. (Go to question 8.)


                               Question 1 Results
                                 (in number of responses)
                                             C
                                            0%

                               B
                           56 (37%)

                                                                A
                                                            94 (63%)




                                           C-1
Question 2
Generally, in FY 2009, how were your airline reservations made? Check one:

A) Used SSA's online tool to make reservations. (Go to question 7.)
B) Phoned an SSA contracted travel agent to make reservations. (Go to question 4.)
C) Used some other method of making reservations.


                           Question 2 Results
                                (in number of responses)
                                          C
                                       7 (4%)

                                                        A
                                                    64 (43%)
                         B
                     79 (53%)




Question 3:
If you chose “C” for question 2, please specify what other method of making airline
reservations was used. Once completed, skip to question 8.

Comments included:

   •   I made online reservations with the airline.
   •   I combined using SSA's online tool with Web searches for cheaper fares. Two
       places I traveled did not have contract carriers.




                                              C-2
Question 4:
If an agent was used to make your airline reservation, did the agent: (Check all that
apply)

A) Explain to you that there were two different types of Government discounted
   airfares.
B) Explain to you that one type of Government discounted airfare is more deeply
   discounted, but limited to a number of seats per flight.
C) Inform you of the available flights at the Government discounted rate.
D) Do not recall what the agent said about the airfares.


                               Question 4 Results
                                 (in number of responses)
          45
                                                                       40(51%)
          40                                         37 (47%)
          35
          30
          25
          20
          15
          10         6 (8%)          6 (8%)
           5
           0
                      A                B                 C                D


         Note: Respondents were able to choose more than one response to question
         four. Seventy- eight individuals responded, providing 89 responses. The
         percentages above reflect the percentage of individuals out of the
         78 respondents that chose the particular response. Since some respondents
         selected more than one choice, the percentages add to more than 100 percent.




                                               C-3
Question 5:
If an agent was used to make your airline reservation, check all that would explain why
you did not use the online reservation tool. (Once completed, skip to question 8, unless
you answer “other.” If you answer “other,” please go to question 6.)

A) I did not know about the online reservation tool.
B) I thought phoning an SSA contracted travel agent was the required method.
C) The online tool was not applicable for my reservation (i.e., flew internationally, travel
   included train reservation, etc.).
D) The online reservation tool is confusing to use.
E) I generally prefer to speak with a travel representative.
F) Other.


                                 Question 5 Results
                                     (in number of responses)
            30                   26
                               (30%)
            25                                           22
                                                       (26%)       20
                                             19
                                                                 (23%)
            20                             (22%)
                     14                                                        14
            15     (16%)                                                     (16%)


            10

             5

             0
                     A           B           C          D          E           F


           Note: Respondents were able to choose more than one response to question
           five. Eighty-six individuals responded, providing 115 responses. The
           percentages above reflect the percentage of individuals out of the
           86 respondents that chose the particular reason for not using the online
           reservation tool. Since some respondents selected more than one choice, the
           percentages add to more than 100 percent.



Question 6:
If you chose “Other” for question 5, please specify why the online reservation tool was
not used. Once completed, skip to question 8.




                                                 C-4
Comments included:

   •   I attempted to use the online reservation, but it would not allow me book the flight
       I wanted to reserve.
   •   I have always called CWT Sato to make air travel arrangements. Thanks to this
       survey, I now know that the Agency prefers I make reservations using E2, so I
       will in the future unless one of the exceptions applies.
   •   The web site was not always available and is not at all user friendly. Sometimes
       problems arose that we could not get resolved online.
   •   A few of the flights were complicated, multi-stop, or international trips.
   •   An administrative person makes my travel arrangements. I do not know why he
       chose his methods.


Question 7:
If SSA’s online reservation tool was used, please rate your experience in booking your
air travel on a scale 1 through 10. A rating of 1 means the online reservation tool was
too confusing to use and required the support from another person to complete the
reservation; a rating of 5 means the online reservation tool required some effort to
navigate through the screens, but you were able to complete the reservations without
any assistance from another person; a rating of 10 means the online reservation tool
was easy to use and reservations were made in a relatively short period of time.


                                Question 7 Results
                                     (in number of responses)

           20                                                          18
                                                                     (26%)
           18
                                                15
           16                                 (21%)
                                                               13
           14                                                (19%)
           12
           10
            8
                  4                                                                   5
            6                                                                  4    (7%)
                (6%)     3               3              3                    (6%)
            4                   2
                       (4%)            (4%)           (4%)
                              (3%)
            2
            0
                 1      2      3        4       5      6        7     8       9     10

                                              Scale 1 through 10




                                               C-5
Question 8:
Which best describes SSA’s policy on the use of travel agents or websites to make
reservations. Please check one:

A) SSA air travelers can make travel arrangements through any travel agent.
B) SSA travelers can make travel arrangements through discount online travel
   websites.
C) SSA air travelers should use CWT Sato, the travel agent SSA has contracted with,
   to make all travel arrangements.


                                 Question 8 Results
                                  (in number of responses)
            160                                              147 (98%)
            140
            120
            100
             80
             60
             40
             20
                       1 (<1%)               2 (1%)
              0
                         A                        B             C




                                            C-6
Question 9:
Which method of booking travel reservations with the Agency’s travel management
center does SSA prefer employees to use when applicable? Please check one:

A) Phoning a travel representative of the Government travel management center (CWT
   Sato).
B) Using the online reservation tool.


                              Question 9 Results
                                (in number of responses)



                                                    A
                                                31 (21%)


                               B
                           119 (79%)




                                          C-7
Question 10:
Which best describes your pay schedule?

A) Executive Schedule
B) General Schedule (GS)-15 or GS-14
C) GS-13 or below


                                Question 10 Results
                                 (in number of responses)



                                                     A
                                                 35 (23%)
                         C
                     78 (52%)
                                                            B
                                                        37 (25%)




                                           C-8
                  Appendix D

Agency Comments
                                      SOCIAL SECURITY


MEMORANDUM


Date:    November 5, 2010                                                     Refer To: S1J-3

To:      Patrick P. O'Carroll, Jr.
         Inspector General

From:    James A. Winn /s/
         Executive Counselor to the Commissioner

Subject: Office of the Inspector General (OIG) Draft Report, “Social Security Administration Employees’
         Use of Discounted Airfares” (A-02-09-29089)—INFORMATION

        Thank you for the opportunity to review the subject report. Please see our attached comments.

        Please let me know if we can be of further assistance. Please direct staff inquiries to
        Rebecca Tothero, Acting Director, Audit Management and Liaison Staff, at extension 66975.

        Attachment:
        SSA Response




                                                      D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “SOCIAL SECURITY ADMINISTRATION EMPLOYEES’ USE OF
DISCOUNTED AIRFARES” (A-02-09-29089)

Thank you for the opportunity to review the subject report. We offer the following comments
and responses to your recommendations.

GENERAL COMMENTS

We are pleased with your findings. Your review confirms that we strive to administer travel in a
cost-effective manner as required by the Federal Travel Regulation (FTR). On March 31, 2009,
we implemented the E2 Solutions Travel Management System to assist us in this effort. We
have also taken other actions such as instituting the E-Gov Travel Service Survey – an ongoing
study that captures user satisfaction rates and provides us with important management
information. We will continue to take similar actions to improve services to our employees and
to make sure they comply with the FTR and agency policies.

Use of the Online Booking Engine “GetThere”

You make several statements concerning online booking usage rates, including the following:

       Page 3, 4th paragraph, last sentence: “More than half the reservations that could have
       been made using the online tool were made by calling an agent instead, which resulted in
       SSA being charged higher transaction fees.”

       Page 7, the sentence above the pie chart: “Of the 298 reservations we reviewed, 203
       (68 percent) were made by calling an agent.”

Comment

When you selected travel transactions for review, you chose the period of April 1, 2009 through
July 1, 2009. That period is not indicative of our recent experience. The E2 Solutions/GetThere
online booking engine was literally brand new at that time. We implemented the system on
March 31, 2009 and expected that usage would be low at first. Before we migrated to
E2 Solutions/GetThere, our annual online booking engine rate averaged 12 percent. In the first
nine months of fiscal year 2010, the average usage rate increased to 51 percent. We reached our
highest rate in June 2010 at almost 59 percent.

In your study, you identify several “Reasons Why Surveyed SSA Employees Did Not Use
GetThere.” We conduct similar research. Since November 13, 2009, when we began our
survey, we have elicited comments from more than 1,400 employees. We used their ideas to
refine our procedures, and GetThere user satisfaction rates rose to 83 percent.

We encourage travelers to use the most economical means to book airline reservations and to use
GetThere whenever possible. On July 30, 2010, we issued a memorandum to senior staff




                                              D-2
highlighting the usage rate and emphasizing the cost savings associated with GetThere. We also
provided a link to an online training video that assists employees in using the tool. Because of
these efforts, we expect the GetThere usage rate to continue to grow.

Use of Non-Contract Carriers

You found there were instances where travelers used non-contract carriers in accordance with
our policies and instances where they used them, but did not follow our policies:

For example:

Page 4, 2nd paragraph, 3rd sentence reads:

“Ten of the 13 authorizations that did not have a justification used a non-contract carrier.”

Comment

We already take actions to address these situations. For example, on December 8, 2009, we
issued a memorandum titled “Mandatory Use of Contract Carriers When Traveling.” In that
memorandum, we reiterated the rules for purchasing non-contract fares. In addition, our
April 2010 Travel Update Newsletter reminded employees about the rules regarding use of
non-contract carriers. We will continue to take similar actions to make sure employees and
approving officials are aware of the policies for booking non-contract carrier flights.

Comparisons with Other Government Travelers

In this instance, it is invalid to compare our usage of discounted fares with other Federal
agencies.

For example:

Page 3, 3rd paragraph, 3rd and 4th sentences read:

“While most SSA employees flew at or below the Government fare, a smaller percentage of SSA
employees in our sample purchased airline tickets at the discounted Government fare when
compared to employees at other Federal agencies. However, because of data limitations, we
were unable to determine whether the discounted Government fare was available each time an
SSA employee purchased an airline ticket.”

Comment

You acknowledge data limitations prohibited you from determining whether the discounted fares
were available. Without this information, your comparison lacks merit.




                                                D-3
RESPONSE TO RECOMMENDATIONS

Recommendation 1

“We recommend that SSA continue to educate and periodically remind employees of their
responsibilities to ensure all air travel complies with pertinent polices and regulations, is properly
authorized, and is being performed in the most economical and advantageous manner, including
using GetThere to make airline reservations.”

Response

We agree. We have issued several agency-wide memoranda and newsletters on a variety of
travel policy issues. We emphasize mandatory use of contract carriers, mandatory use of our
contracted travel management service, the need to maintain documentation when using a
non-contract carrier, and the benefits of using GetThere.

We will continue to remind employees about the rules regarding use of the most economical and
advantageous modes of transportation and the benefits of using the online booking engine when
making airline reservations. We will:

   •   Provide articles in our Quarterly and “Special” Travel Update communications.

   •   Conduct transportation policy training sessions via the web.

   •   Prepare training quizzes on air transportation policy via the web.

   •   E-mail employees booking agent-assisted airline reservations when they could have used
       GetThere.

   •   Issue Senior Staff memoranda on the use of the online booking engine and the mandatory
       use of the GSA City-Pair Contract Program, when deemed necessary.


We will always work to educate our employees in this area. Because it is an ongoing process,
we consider this recommendation closed for tracking purposes.

Recommendation 2

“We recommend that SSA change its policies to allow employees to purchase airline tickets that
save Agency funds if the employee is willing to assume responsibility for any cancellation fees.”

Response

We disagree. We do not need to change our policy. As we state in our technical comments that
follow, there are times when non-refundable fares are economical, and we authorize their use.



                                                D-4
Similarly, AIMS FMM 07.09.09.F provides that under certain conditions, employees may not be
responsible for cancellation fees. Specifically:

   •   The authorizing official must determine the penalty was unavoidable and was incurred
       because of official necessity.

   •   The travel arrangements must have been made by the employee after being reasonably
       certain that he/she could meet all the requirements of the promotional or restricted fare.


   •   A determination must be made that the employee acted reasonably and prudently in
       attempting to obtain a refund or otherwise took steps to minimize the penalty.


   •   A cost comparison clearly substantiated that the penalty does not exceed what the
       reservations would have cost under a non-restricted coach fare.


   •   Written justification, including the above, must be provided to support the payment of the
       penalty fee.




[In addition to the information listed above, SSA provided technical comments which
have been addressed, where appropriate, in this report.]




                                               D-5
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Tim Nee, Director, New York Audit Division, (212) 264-5295

   Christine Hauss, Audit Manager, (212) 264-5826

Acknowledgments

In addition to those named above:

   Susan Yuen, Program Analyst, (212) 264-1338

   Pat Kennedy, Lead IT Specialist

   William Kearns, IT Specialist

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-02-09-29089.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
